           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   INDIVIDUAL REPRESENTATIVE PAYEES
        FOR THE SOCIAL SECURITY
            ADMINISTRATION
      IN THE SAN FRANCISCO REGION

      April 2005     A-09-05-15056




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   April 27, 2005                                                                    Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the
        San Francisco Region (A-09-05-15056)

        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income (SSI)
        recipients when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interest; and preference is normally given to a parent, legal guardian, spouse or other
        relative of a beneficiary.2 SSA considers payments to a representative payee to have
        been used for the benefit of the beneficiary if they were spent on the beneficiary’s
        current maintenance—which includes the costs incurred in “…obtaining food, shelter,
        clothing, medical care, and personal comfort items.”3


        1
         The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 – Peter D. Spencer

We are conducting a nation-wide review of individual representative payees serving
14 or fewer beneficiaries (Appendix B). There are approximately 4.3 million of these
types of representative payees who serve approximately 5.5 million beneficiaries. We
selected a random sample of 275 individual representative payees for review, of which
35 were in the San Francisco Region (SF Region).4 These 35 representative payees
received and managed approximately $24,768 in monthly benefits for 41 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 41 beneficiaries in the care of the 35 representative
payees in the SF Region; and, through personal observation and interviews, we found
that all 41 beneficiaries' food, clothing and shelter needs were being met.5 For 37 of the
beneficiaries in the care of 31 representative payees, nothing came to our attention that
would lead us to believe that the representative payees did not use the Social Security
benefits received for the beneficiaries’ needs. However, four representative payees did
not manage the benefits of four beneficiaries. Specifically, we found that two
representative payees turned over the full amount of the benefit payments to the
beneficiaries without providing any direction or instruction about how to use the funds,
and two representative payees had relinquished their responsibilities to other
individuals.

Representative Payees Turned over the Entire Benefit Amount to Beneficiaries

One of a representative payee’s primary responsibilities is to ensure the beneficiary’s
day-to-day needs are met.6 This includes costs incurred in obtaining food, shelter,
clothing, medical care, and personal comfort items.7 It also includes, but is not limited
to, regularly meeting with the beneficiary to ascertain his/her current and foreseeable
needs.8 Finally, SSA policy states that a representative payee who turns over the full
amount of benefits to a beneficiary without giving any direction or instruction about how
to use the funds suggests a lack of interest by the payee. It may also suggest the
beneficiary is capable of managing his/her own benefits.9




4
 Originally, we had 31 cases in the SF Region. However, four cases were added for review. See
Appendix C for details.
5
 Of the 35 representative payees, 17 representative payees were the beneficiaries’ mothers,
16 representative payees were another relative, and 2 were not relatives.
6
    SSA, Guide for Representative Payees, p. 3.
7
    SSA, POMS, GN 00602.001 A.2.
8
    SSA, POMS, GN 00502.113 C.1
9
    SSA, POMS, GN 00605.066 B.2 and GN 00605.067 D.1.
Page 3 – Peter D. Spencer

Two representative payees turned over the entire amount of the benefit payments to the
beneficiaries without providing any direction or instruction about how to use the funds.
In one of these cases, the representative payee turned over $464 to his 16-year-old
daughter. The representative payees in these two cases believed the beneficiaries
were capable of managing their own benefits. According to the representative payees,
the beneficiaries used the funds to pay for such expenses as rent, food, clothing, and
personal comfort items. However, since SSA determined the beneficiaries were
incapable of managing their benefits, the representative payees should not have turned
over their benefit payments. These two representative payees managed a total of
$1,274 per month for the beneficiaries they served. At this rate, these representative
payees were not managing approximately $15,288 per year.

The SSA staff attending the interviews advised the representative payees to visit their
local SSA field offices so SSA could determine whether the beneficiaries were capable
of managing their own benefits.

Representative Payees Relinquished Their Responsibilities to Other Individuals

SSA policy requires that SSA find the person or organization best suited to be a
representative payee.10 In doing so, SSA conducts a face to face interview, verifies the
payee’s identity and evaluates the applicant using such factors as (1) concern for the
beneficiary’s well being, (2) ability to handle his/her own affairs, (3) knowledge of the
beneficiary’s current and foreseeable needs, (4) relationship to the beneficiary, and
(5) history for criminal behavior or prior misuse of benefits.11 Furthermore, during the
interview, SSA ensures the applicant understands a representative payee’s duties and
responsibilities.

Two representative payees were the representative payees of record but had
relinquished their duties to other individuals. The first representative payee was the
beneficiary’s mother, who was having difficulty with her memory and did not know a
representative payee’s duties and responsibilities. Therefore, the representative
payee’s daughter—the beneficiary’s sister—was paying the bills and maintaining
records.

Similarly, the second representative payee was the beneficiary’s father. He was not
aware of the duties and responsibilities of being a representative payee. Further, the
representative payee was not fluent in English and enlisted his daughter to help him
with his representative payee duties.

In both cases, the representative payees may not have been the best suited payees for
these beneficiaries. These two representative payees had relinquished their duties to
other individuals who were unknown to SSA, and the individuals had not filed
applications to be representative payees. As a result, SSA had not determined whether
10
     SSA, POMS, GN 00502.100 A.
11
     SSA, POMS GN 00502.113 B. and GN 00502.130.
Page 4 – Peter D. Spencer

the individuals who had assumed the role of representative payee were the best suited
payees. Furthermore, SSA could not ensure these individuals understood a
representative payee’s responsibilities.

The monthly benefit amounts of the beneficiaries served by these two representative
payees totaled $1,695. At this rate, these representative payees were not managing
approximately $20,340 per year.

The SSA staff who attended the interviews advised the individuals to visit the local
SSA field office and apply to be representative payees.

CONCLUSIONS AND RECOMMENDATIONS
We confirmed the existence of the 41 beneficiaries in the care of the 35 representative
payees in the SF Region; and, through personal observation and interviews, we found
that all 41 beneficiaries' food, clothing and shelter needs were being met. For 37 of the
beneficiaries in the care of 31 representative payees, nothing came to our attention that
would lead us to believe the representative payees did not use the Social Security
benefits received for the beneficiaries’ needs. However, four representative payees did
not manage the benefits of four beneficiaries. We recommend that SSA follow up with
the four representative payees and beneficiaries to determine whether any change of
representative payee is warranted.

AGENCY COMMENTS

SSA agreed with our recommendation and took actions on the four representative
payees who were not managing the benefits of four beneficiaries. See Appendix D for
the text of SSA’s comments.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
C.F.R.      Code of Federal Regulations
POMS        Program Operations Manual System
RPS         Representative Payee System
SF Region   San Francisco Region
SSA         Social Security Administration
SSI         Supplemental Security Income
U.S.C.      United States Code
                                                                                       Appendix B

Scope and Methodology
Our population included all individual representative payees in the contiguous 48 States
serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our objective, we:
•     Reviewed the Social Security Administration’s (SSA) policies and procedures for
      monitoring representative payees and their responsibilities for the beneficiaries in
      their care.
•     Obtained a data extract of representative payees from the Representative Payee
      System as of May 2004 meeting our selection criteria.
•     Selected a random sample of 275 representative payees nationwide. We are
      issuing a separate report on the nation-wide results, as well as separate reports for
      each of the 10 SSA regions.1

For the 35 representative payees and 41 beneficiaries they served in the San Francisco
Region, we:
•     verified the identities of 35 representative payees and 41 beneficiaries they served;
•     interviewed 35 representative payees;
•     interviewed 39 beneficiaries;2 and
•     visited and observed the living conditions of 41 beneficiaries.

We performed our review in California, Nevada, and Arizona from July to October 2004.
We conducted our review in accordance with Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the
Social Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative
Payees for the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual
Representative Payees for the Social Security Administration in the Chicago Region (A-05-05-15052),
Individual Representative Payees for the Social Security Administration in the Dallas
Region (A-06-05-15053), Individual Representative Payees for the Social Security Administration in the
Kansas City Region (A-07-05-15054), Individual Representative Payees for the Social Security
Administration in the Denver Region (A-07-05-15055), Individual Representative Payees for the
Social Security Administration in the San Francisco Region (A-09-05-15056), and Individual
Representative Payees for the Social Security Administration in the Seattle Region (A-09-05-15057).
2
    Two of the 41 beneficiaries could not be interviewed because of medical reasons.
                                                                      Appendix C

Sampling Methodology and Results
Nation-wide Review

We obtained a data extract from the Social Security Administration’s (SSA)
Representative Payee System (RPS) of all individual representative payees having
14 or fewer beneficiaries in their care as of May 20, 2004. This population was
5,380,635 representative payees serving 6,818,696 beneficiaries.

From this population, we removed representative payees who had any of the following
characteristics:

•   resided outside of the 48 contiguous States;

•   identified within RPS as only serving as their own representative payee;

•   had all beneficiaries in their care in non-current pay status;

•   had an invalid state code or military address; or

•   managed total funds of $50 or less monthly.

This reduced our sample population to 4,306,779 representative payees serving
5,520,303 beneficiaries. We randomly selected 275 representative payees from this
sample population for review.

San Francisco Region Sample Cases

Initially, 31 of the 275 sample cases chosen were located in the San Francisco Region
(SF Region). However, four representative payees were added to our region for review.

•   One was transferred from the Philadelphia Region because SSA records showed
    the representative payee had a Maryland address when the representative payee
    and beneficiary actually lived in Nevada.




                                             C-1
•   Two were added because two representative payees in the Chicago Region stopped
    serving as representative payees, and the replacements randomly chosen were
    located in the SF Region.

•   One was added because SSA records showed a representative payee in the
    Chicago Region was recorded as an individual representative payee when actually
    serving as an organizational representative payee, and the replacement randomly
    chosen was located in the SF Region.

Accordingly, our review of the SF Region consisted of 35 representative payees. Our
findings in the SF Region will be included in a national report, where statistical
projections will be made.




                                         C-2
                  Appendix D

Agency Comments
                             SOCIAL SECURITY
MEMORANDUM

Date:       April 14, 2005


TO:         Patrick P. O’Carroll, Jr.
            Inspector General


FROM:       Regional Commissioner
            San Francisco

SUBJECT: Individual Representative Payees for the Social Security Administration in
         the San Francisco Region (A-09-05-15056) – REPLY


Thank you for the opportunity to review the draft report for the Individual Representative
Payees in the San Francisco Region.

We are pleased that the interviews with the 41 beneficiaries in care of 35 payees did not
result in any findings of misuse or any situations in which the beneficiary’s needs were
not being met.

In the four cases that were cited for possible change of payee, the following actions have been
        taken:

    1. The payee who was turning over the entire check to the beneficiary who was his
       17-years old daughter was interviewed by the FO. The FO also separately interviewed
       the daughter. The daughter indicated that she was comfortable with the arrangement
       and did not want to receive her check directly. The FO explained to the father that he
       should exercise more authority over how the money was spent and he agreed to do so.

    2. The payee was turning over the entire check to the beneficiary, his adult brother. The
       beneficiary has been put into direct payment.

    3. In the situation where a father is the payee for his 23-year old disabled son, the FO
       interviewed the father and also spoke to the nursing home where the son is
       permanently confined. Although the father only speaks Spanish (which was the concern
       of OIG), he does understand his payee responsibilities and the FO determined that he is




                                           D-1
      the proper payee. He only needs assistance when he receives SSA materials printed in
      English.

   4. For the case in which the mother was payee for her adult son, the payee has been
      changed to the beneficiary’s adult sister.

If you wish to discuss our response, please call me at 510-970-8400. Staff may contact
Cheryl Jacobson, Center for Programs, at 510-97-8248.



                                             /s/
                                        Peter D. Spencer

cc:
Fritz Streckewald
JoEllen Felice
Candace Skurnik




                                         D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737


Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Regina Finley, Auditor

   Daniel Hoy, Auditor

   Alex Rosania, Auditor

   Mildred Soto, Auditor

   Nicole Kato Sullivan, Auditor

   Wilfred P. K. Wong, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15056.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
